                    SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
                                                                   Main: 703-545-6000
                                                           1550 Crystal Drive, 9th Floor
                                                                         Arl ington, VA
        John f. Sopko, Special Inspector General                         www.s igar.mil


September 10, 20 12

The llonorable Leon E. Panetta
Secretary of Defense
General James N. Mattis
Commander, U.S. Central Command
General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, Internationa l Security Ass istance Force
Lieutenant General Daniel P. Bolger
Commanding General, ATO Training Mission-Afghanistan/
  Combined Security Transition Command-Afghanistan

SUBJECT: Destruction ofOEF Financial Documents Related to ANA POL Audit (code 054A)

The Special Inspector General for Afghanistan Reconstruction (S lGAR) is conducting an audit of the
Afghan ational Army's (ANA) logistics capability for petroleum , oil, and lubricam (POL). During the
conduct ofthis audit, ATO Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan (CSTC-A) informed us that its officials shredded all ANA POL financial records related to
payments tota ling nearly $475 million from October 2006 to February 20 I I. In addition , CSTC-A could
not provide more than half of the documents we req uested for our audit period from March 20 II to March
2012. As a result, SIGAR reduced the audit period and cou ld not audit the documental ion for more than
$4.5 million of selected ANA fuel orders paid during our audit period.

The destruction of records and the unexplained failure to provide other records violate DOD and
Department of the Am1y policies. Specifically, on February 28, 20 I0, U.S. Army Central Command
issued a memorandum instructing its fi nancia l managers not to destroy or dispose of financia l documents
related to Operation Enduring Freedom (OEF). The memorandum, which referenced Defense Finance
Accounting System Regulation 37- 1, Chapter 2, and OF AS Manual 50 15.2-M, noted that "proper
visibil ity, accountability, transparency, oversight, and controls of the e financial documents is essential to
maintaining our credibility, and the trust and confidence of the Congress and tax payers."

SIGAR would like to reiterate the importance of retaining all financia l records given the importance of
accountabi lity, transparency, and oversight. SIGAR also strongly recommends that you look into the
causes and circumstances ol' the reported shredd ing, as well as any actions taken based on your own
standards. This matter has been referred to SIGAR Investigations, and we wou ld appreciate the continued
        10 of CSTC-A in our official i        tigation of the destruction of these records.



   n F. Sopko
 pecial Inspector General
   for Afghani stan Reconstruction




                        Mailing Address: 2530 Crystal Drive, Arlington VA 22202-3940
